No. 20-1425

 

In THE
Supreme Court of the United States

C.H. ROBINSON WORLDWIDE, INc.,

Petitioner,
Vv.

ALLEN MILLER,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth
Circuit

BRIEF OF THE NATIONAL ASSOCIATION OF
MANUFACTURERS, THE CHAMBER OF COMMERCE
OF THE UNITED STATES OF AMERICA, AND THE
NATIONAL RETAIL FEDERATION AS AMICI CURIAE
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,456 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 19, 2021.

kk

Colin Casey Mogan
Wilson-Epes Printing Co., Inc.
